  GOVERNMENT PERFORMANCE AND RESULTS ACT GOALS:
                   TANK MILES


Report No. D-2001-045               February 7, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report or visit the Inspector General,
  DoD, Home Page at www.dodig.osd.mil or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704
  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CATS                  Combined Arms Training Strategy
GPRA                  Government Performance and Results Act
LOGSA                 Logistics Support Activity
NTC                   National Training Center
OCONUS                Outside the Continental United States
ODCSOPS               Office of the Deputy Chief of Staff for Operations and Plans
OPTEMPO               Operating Tempo
OUSD(P&R)             Office of the Under Secretary of Defense for Personnel and
                         Readiness
PA&E                  Program Analysis and Evaluation
QDR                   Quadrennial Defense Review
       FY 1999 Government Performance and Results Act
               Tank Mile Performance Measure
                          (in miles)




1000



        800
 800

                            681

                                                 567
 600




 400




 200




  0
       Goal             DoD Reported            Actual
                        Performance
                       Office of the Inspector General, DoD
Report No. D-2001-045                                              February 7, 2001
  (Project No. D2000LH-0138)

             Government Performance and Results Act Goals:
                              Tank Miles

                                Executive Summary

Introduction. The Government Performance and Results Act (GPRA) of 1993, Public
Law 103-62, was designed to improve Government-wide program effectiveness,
Government accountability, and, ultimately, public confidence by requiring agencies to
identify measurable annual performance goals against which actual achievements can be
compared.

This report is one in a series of reports resulting from our audits of GPRA goals. This
report discusses the FY 1999 DoD GPRA Performance Measure 1.2.14, “Number of
Tank Miles per Year.” The goal for that performance measure, 800 tank miles per
year, was established as the average level of peacetime activity, including in-field
training, combat simulations, and equipment maintenance, needed to achieve wartime
proficiency standards. DoD established the “Tank Miles” measure to assess
achievement of wartime proficiency standards and to serve as a benchmark for the
Army ground forces portion of Performance Goal 1.2, “Maintain Trained and Ready
Forces.”

Objectives. The overall audit objective was to evaluate the DoD tank mile GPRA
performance measure, as shown in the Secretary of Defense’s “Annual Report to the
President and the Congress,” 2000 (the Annual Report).
Results. DoD reported 681 tank miles for FY 1999 instead of the 567 M1 Abrams tank
miles actually driven, on average, in installation-based training. Further, DoD did not
fully identify, document, and report the reasons for the 29 percent shortfall in achieving
the 800 tank miles goal and the management activities undertaken to improve the ability
of DoD to achieve the performance measure (finding A). The existing measure
established performance objectives for training-only tank units rather than for the
training for the Army’s combat arms team. Further, limitations on the use of the
“Tank Miles” measure to assess the Army’s ground forces were not clearly explained
in the Annual Report. As a result, the “Tank Miles” performance measure provided
incomplete information on achievement of the performance measure (finding B).
Summary of Recommendations. We recommend that the Under Secretary of Defense
for Personnel and Readiness (USD[P&R]) issue guidance establishing the criteria for
identifying the type of tank miles to be included in the goal and the number reported;
and identify, document, and report the reasons for shortfalls and management activities
undertaken to improve the ability of DoD to achieve its tank miles performance
measure and more clearly explain limitations on the use of the “Tank Miles”
performance measure.

Management Comments. The USD(P&R) agreed that tank miles driven at the
National Training Center were erroneously included in the actual numbers for FY 1999
but nonconcurred that miles driven during deployments (Kuwait and Bosnia) should not
be counted toward achievement of the 800-mile performance measure. The USD(P&R)
partially agreed to issue guidance establishing the criteria for identifying the type of
tank miles to be included in the goal and the number reported and to identify,
document, and report the reasons for shortfalls in achieving tank miles and management
activities undertaken to improve the ability of DoD to achieve the performance
measure. The USD(P&R) disagreed that the DoD use of the “Tank Miles” measure to
assess the readiness of the Army’s ground forces is inappropriate. The USD(P&R)
stated it was not going to develop a comprehensive measure for the performance goal to
maintain trained and ready forces that is representative of Army combat arms training.
A discussion of management comments is in the finding sections of the report, and the
complete text is in the Management Comments section.

Audit Response. The USD(P&R) comments were partially responsive. The
USD(P&R) needs to more fully describe the specific steps taken to issue guidance
establishing the criteria for identifying the type of tank miles to be included in the goal
and the number reported. Further, USD(P&R) needs to more clearly explain and
describe, in the Annual Report, why the goal was not met and the plans and schedules
for achieving the established performance goal. Based on USD(P&R) comments, we
have revised the finding to clarify our intent that limitations on the use of the “Tank
Miles” measure be more fully explained. We request that the USD(P&R) provide
additional comments on the recommendations by April 9, 2001.




                                             ii
Table of Contents

Executive Summary                                                            i

Introduction
     Background                                                             1
     Objectives                                                             2

Findings
     A. Reporting of DoD Tank Mile Goal                                     3
     B. Measuring the Performance Goal                                      8

Appendixes
     A. Audit Process
         Scope and Methodology                                              12
         Prior Coverage                                                     13
     B. Recording Process for Tank Miles                                    14
     C. Report Distribution                                                 15


Management Comments
     Office of the Under Secretary of Defense for Personnel and Readiness   17
________________________________________________________________________


Background
      This report is one in a series of reports resulting from our audits of Government
      Performance and Results Act (GPRA) of 1993 goals. This report discusses the
      FY 1999 DoD GPRA Performance Measure 1.2.14, “Number of Tank Miles
      per Year.” DoD established the goal for that performance measure, 800 tank
      miles per year, as the average level of peacetime activity, including in-field
      training, combat simulations, and equipment maintenance, needed to achieve
      wartime proficiency standards.

      The Government Performance and Results Act of 1993 (Public Law 103-62).
      GPRA was designed to improve Government-wide program effectiveness,
      Government accountability, and, ultimately, public confidence by requiring
      agencies to identify measurable annual performance goals against which actual
      achievements can be compared. The GPRA requires Federal agencies to
      prepare strategic plans, annual performance plans, and program performance
      reports covering the program activities set out in their budgets.

      In March 2000, DoD fulfilled its GPRA requirement by publishing a combined
      performance plan for FY 2001 and performance report for FY 1999 in
      Appendix I of the Secretary of Defense’s “Annual Report to the President and
      the Congress,” 2000 (the Annual Report). The Office of the Director, Program
      Analysis and Evaluation (PA&E) obtains data and prepares the overall GPRA
      appendix in the Annual Report.

      Report of the Quadrennial Defense Review. The May 1997 Report of the
      Quadrennial Defense Review (QDR) describes the results of a definitive,
      overarching program evaluation undertaken by the Department. By examining
      America’s defense needs from 1997 to 2015, the potential threats the nation
      might face and the strategy, force structure, readiness, infrastructure, and
      modernization programs needed to cope with them, the QDR provides a
      blueprint for a balanced and affordable defense program. The May 1997 QDR
      is the Department’s strategic plan. The strategic plan will remain in effect until
      revised by the next QDR in 2001, as mandated by Section 402 of the National
      Defense Authorization Act for FY 2000 (Public Law 106-65). DoD has
      established two corporate-level goals that form the basis for using GPRA as a
      management tool, and they serve as strategic goals for the Department.

      GPRA Goals and Measures. In its Annual Report, DoD establishes two
      corporate level goals and eight subordinate performance goals. “Annual
      performance goals establish a measurable path to incremental achievement of the
      corporate goals,” states the Annual Plan. “Performance goals are supported and
      evaluated by quantifiable output, which is assessed using performance measures
      and indicators.” This audit report addresses Performance Measure 1.2.14,
      “Number of Tank Miles per Year,” which is one of 15 measures used to assess
      Performance Goal 1.2. The performance goal states “Maintain ready forces
      and ensure they have the training necessary to provide the United States with the
      ability to shape the international security environment and respond to a full
      spectrum of crises.” Other performance measures for Performance Goal 1.2 are
      “Flying Hours;” “Number of Steaming Days per Quarter; ” and other measures
      concerning force levels, operating tempo (OPTEMPO) levels, and readiness


                                           1
________________________________________________________________________

      indicators. Performance Goal 1.2 is one of three subordinate goals of Corporate
      Level Goal 1 and states, “Shape the international security environment and
      respond to the full spectrum of crises by providing appropriately sized,
      positioned, and mobile forces.”
      Tank Miles. The goal established by DoD for Performance Measure 1.2.14
      was an average of 800 tank miles driven per tank, per year. In setting the goal,
      DoD only included installation-based training accomplished in the M1 Abrams
      main battle tank. DoD did not include in the goal training miles from the
      National Training Center (NTC) or miles driven during contingency operations
      or exercises outside the continental United States (OCONUS). The Office of the
      Under Secretary of Defense for Personnel and Readiness (OUSD[P&R]) was
      designated the primary sponsor for the tank mile goal.


Objectives
      The overall objective of the audit was to evaluate the tank mile performance
      measure, as shown in the Annual Report. Specifically, we assessed the validity
      of the process, data, and factors used to establish the goal related to tank miles.
      We evaluated the methods used to accumulate and report the data collected by
      DoD against that goal. We also reviewed the management control program as it
      applied to the overall audit objective, which will be discussed in a summary
      report. See Appendix A for a discussion of the audit scope and methodology
      and prior coverage related to the audit objectives.




                                           2
           A. Reporting of DoD Tank Mile Goal
           DoD reported 681 tank miles for FY 1999 instead of the 567 M1 Abrams
           tank miles actually driven, on average, in installation-based training.
           Further, DoD did not fully identify, document, and report the reasons
           for shortfalls in achieving tank miles and the management activities
           undertaken to improve the ability of DoD to achieve its performance
           goals. This occurred because DoD did not issue definitive guidance
           identifying the type of tank miles to be included in the goal and the
           number of miles to be reported. In addition, DoD did not fully comply
           with guidance requiring shortfalls in achieving the goal and management
           activities undertaken to achieve the goal to be documented. As a result,
           the users of the GPRA information were provided incomplete
           information on program effectiveness and results.


Recording Process for Tank Miles
    The Army used its existing process for the collection and review of tank miles
    driven to provide to the Army Office of the Deputy Chief of Staff for
    Operations and Plans (ODCSOPS) the information reported to PA&E for
    inclusion in the Annual Report. See Appendix B for details on the Army
    recording process for tank miles.


Reported Tank Miles
    DoD reported 681 tank miles for FY 1999 instead of the 567 M1 Abrams tank
    miles actually driven, on average, in installation-based training. The 114-mile
    overstatement was from types of tank miles other than installation-based training
    in the M1 Abrams tank, which was the only Army weapons system considered
    when setting the goal.

    Performance Measure 1.2.14. DoD considered only installation-based training
    in the M1 Abrams tank when establishing 800 tank miles driven per year as the
    goal for Performance Measure 1.2.14. The 800-mile goal does not include any
    noninstallation-based training, such as the tank miles driven at the NTC or tank
    miles driven during contingency operations in Bosnia and Kuwait. DoD
    excluded noninstallation-based training, miles driven during contingency
    operations, and OCONUS exercises when setting the goal because funding for
    those types of tank miles is separate from installation-based training.
    Additionly, according to the Army’s Combined Arms Training Strategy
    (CATS), the 800 miles training goal is what a tank unit should accomplish in
    preparation of a NTC rotation (for more detailed information on Army training
    levels, see finding B). The objective of the miles accumulated during a NTC
    rotation (a major combined arms training exercise) is to place the unit at a T-1
    training status (ready to deploy).

    The Annual Report. In the Annual Report, 681 tank miles were reported for
    FY 1999. However, the 681 miles included 114 miles that were from


                                        3
________________________________________________________________________

      noninstallation-based training (80 miles) and contingency operations (4 miles in
      Bosnia and 30 miles in Kuwait). Although the Annual Report states that the 681
      miles include annual mileage from the NTC, the Annual Report is inconsistent
      because DoD did not include mileage from the NTC when setting the goal for
      the tank mile performance measure. Therefore, DoD should have reported 567
      tank miles for FY 1999. The 233-mile difference between the goal and what
      DoD should have reported is a 29 percent shortfall.

      However, in our opinion, the tank mile goal could include miles driven for
      installation-based, NTC, and contingency operations training, regardless of
      funding sources. That could be accomplished provided that the miles
      established for the goal were redefined to include those three elements, the
      performance is measured against this more comprehensive definition, and the
      training to be measured satisfies Army training standards.


Achieving the Tank Mile Goal
      DoD did not fully identify, document, and report the reasons for shortfalls in
      achieving tank miles and the management activities undertaken to improve the
      ability of DoD to achieve its performance goals, as required by the GPRA of
      1993 and DoD guidance.

      Reporting Guidance. The GPRA requires agencies to explain and describe
      why goals were not met and plans and schedules for achieving the established
      performance goal. In addition, an Under Secretary of Defense memorandum,
      “FY 1999 Government Performance and Results Act (GPRA) Performance
      Report,” June 14, 1999, specified that primary sponsors were responsible for
      providing to PA&E for inclusion in the Annual Report the rationale for any
      FY 1999 goals that were not met.

      Reasons for Not Meeting the Tank Mile Goal. The Annual Report states,
      “Due to the diversion of resources to support other Army O&M [Operation and
      Maintenance] programs, the Department did not fully meet its FY 1999
      performance goals for tank miles.” The Annual Report also states that Army
      shortfalls occurred because the Army had “to divert resources from training to
      other programs (such as real property maintenance).” The rationale in the
      Annual Report for not meeting the tank mile goal was diversion of resources.
      However, ODCSOPS could not readily provide the documentation to
      specifically identify the 233-mile shortfall. The Army provided us additional
      reasons, which were not included in the Annual Report, including:

             •   migration of funds,

             •   contingency operations,

             •   reduction in force structure,

             •   hauling tanks to ranges, and

             •   mission-capable status of tanks.



                                           4
            Migration of Funds. Army FY 1999 funding for executing the
    installation-based training was $2.57 billion. Of that funding, the Army used
    $298 million (11 percent) for other purposes. For example, funding was
    diverted to real property maintenance and base operations. However,
    ODCSOPS could not readily document or specify what the $298 million was
    used for, stating that detailed information could be found at subordinate
    commands or at the installation level.

           Contingency Operations. When the Army participates in contingency
    operations, planned training may not be accomplished. For example, the Army
    reported 4 tank miles driven in Bosnia for FY 1999. Had the personnel not
    been deployed, planned training would have resulted in more tank miles being
    driven and reported.

            Other Issues. Organizational and procedural changes, such as reduction
    in force structure and hauling tanks to ranges, decrease the number of training
    tank miles driven. Further, tanks that are not mission capable are not available
    for training.

    Neither OUSD(P&R) nor the Army could quantify the effect each of those
    issues had on training tank miles driven.

    Strategy for Achieving the Goal in the Future. DoD did not fully identify,
    document, and report the management activities undertaken to improve the
    ability of DoD to achieve its performance goals. The Annual Report states,
    “The Army expects to meet its tank-mile goals for FY 2000 by more accurately
    managing O&M [Operation and Maintenance] accounts, thus reducing the need
    for funding migration.” The Annual Report further states, “No shortfalls are
    projected for FY 2000, pending receipt of supplemental funding.” We do not
    believe that these statements fully describe management activities undertaken to
    meet the goal. Further, since DoD did not report and OUSD(P&R) and
    ODCSOPS did not document training shortfalls, we believe that the lack of
    documentation of training shortfalls could hamper OUSD(P&R) and the Army
    in developing necessary steps to achieve the goal in the future.


Conclusion
    DoD did not accurately report tank miles actually driven, on average, in
    installation-based training for FY 1999. Further, DoD did not fully identify,
    document, and report the reasons for shortfalls in achieving tank miles and the
    management activities undertaken to improve the ability of DoD to achieve its
    performance goals. Information provided to PA&E for publication in the Annual
    Report was insufficient because neither OUSD(P&R) nor the Army had issued
    definitive guidance identifying the type of tank miles to be included in the goal
    and the number of miles to be reported. Further, DoD did not fully comply
    with DoD guidance or guidance provided by the GPRA requiring shortfalls in
    achieving the goal and management activities undertaken to achieve the goal be
    documented. As a result, users of the GPRA information were provided
    incomplete information on program effectiveness and results. OUSD(P&R)
    should issue guidance identifying the type of tank miles to be reported,
    reflecting the miles considered in establishing the goal, and require shortfalls in


                                         5
________________________________________________________________________

      achieving the goal to be identified and documented to include management
      activities undertaken to improve the ability of DoD to achieve its performance
      goals.


Management Comments on the Finding and Audit Response
      Management Comments. The USD(P&R) concurred with the finding that tank
      miles driven at the NTC were erroneously included in the actual numbers for
      FY 1999 and stated that this will be corrected in the FY 2002 performance plan
      and FY 2000 performance report. However, USD(P&R) did not concur that
      miles driven during deployments (Kuwait and Bosnia) should not be counted
      toward achievement of the 800-mile performance target. USD(P&R) stated that
      training during rotational deployments is training with an exclusive focus on
      real-world missions, and clearly does impact on readiness.

      Audit Response. The USD(P&R) comments concerning miles driven during
      deployments are partially responsive. When DoD established the 800-mile goal,
      the goal included only miles driven for installation-based training and did not
      include the miles driven at the NTC or miles driven during contingency
      operations. Also, according to the Army’s CATS, the 800-mile training goal is
      what an M-1 tank unit should accomplish in preparation for an NTC rotation.
      The miles accumulated during a NTC rotation encompass training requirements
      above the 800-mile goal and places a unit in a “ready to deploy” status.
      Further, because of the separate funding for installation-based training and for
      the NTC training, the DoD excluded the miles driven at the NTC from the 800-
      mile goal. The same rationale applies for excluding the miles driven in
      contingency operations because additional funding for the contingency
      operations is also provided separately. In addition, there is no assurance that
      the miles driven during contingency operations meet the standards established
      for installation-based and NTC training. We believe that the tank mile goal
      could include miles driven for installation-based, NTC, and contingency
      operations training, regardless of funding sources. That goal could be
      accomplished provided that the miles established for the goal are redefined to
      include those three elements, the performance is measured against this more
      comprehensive definition, and the training to be measured satisfies Army
      training standards.




                                          6
Recommendations, Management Comments, and Audit
Response
    Deleted Recommendations. As a result of management comments, we deleted
    Recommendation A.3.

    A. We recommend that the Under Secretary of Defense for Personnel and
    Readiness:

          1. Issue guidance establishing the criteria for identifying the type of
    tank miles to be included in the goal and the number reported.

    Management Comments. The USD(P&R) partially concurred and stated that
    the Army has already taken steps to establish consistent reporting criteria to
    measure tank miles and, therefore, there is no need to impose further guidance.

    Audit Response. The USD(P&R) comments are not fully responsive. The
    USD(P&R) did not describe the specific steps taken by the Army. We request
    that the USD(P&R) provide more specific comments on the corrective actions.

           2. Identify, document, and report the reasons for shortfalls in
    achieving tank miles and the management activities undertaken to improve
    the ability of DoD to achieve its performance goals.

    Management Comments. The USD(P&R) partially concurred and stated that
    the Army anticipates improved visibility in the future on the reasons for
    shortfalls through its Quarterly Performance Review of tank mile execution. In
    addition, the Army will require greater resolution from Army major commands
    for their performance results before deciding whether further documentation will
    be cost effective.

    Audit Response. The USD(P&R) comments were not fully responsive. The
    Army incurred a 233-mile shortfall for installation-based tank training and
    missed the stated goal by 29 percent. DoD did not clearly explain and describe
    to the user of the Annual Report why the goal was not met and the plans and
    schedules for achieving the established performance goal. The GPRA and DoD
    guidance require that this be done. Further, inability to identify and to
    document the shortfall prevents the user of the Annual Report in assessing
    whether DoD has identified the corrective measures for achieving the goal in the
    future. We request that the USD(P&R) provide additional comments on the
    recommendation.




                                       7
________________________________________________________________________

             B. Measuring the Performance Goal
             DoD established the “Tank Miles” measure for assessing the
             achievement of wartime proficiency standards and to serve as a
             benchmark for the Army ground forces portion of Performance Goal
             1.2, “Maintain Trained and Ready Forces.” The existing measure
             established performance objectives for training only tank units rather
             than for the training for the Army’s combat arms team. However,
             limitations on the use of the “Tank Miles” measure to assess the Army’s
             ground forces were not clearly explained in the Annual Report. As a
             result, the “Tank Miles” performance measure provided incomplete
             information on achievement of the performance measure.

Army Mission
      The Army mission is to provide a trained and ready force of appropriate
      composition to meet the mission requirements of the warfighting commanders in
      chief. The Army satisfies that requirement by manning, equipping, and training
      Army forces allocated to the commanders in chief by the National Command
      Authority.


Quadrennial Defense Review
      The QDR does not provide a specific performance goal for Army ground forces.
      However, the QDR clearly highlights the importance of readiness. The
      Secretary’s message states, “We need ready forces in a world of sudden events
      that often will demand that our forces come ‘as you are’ on a moment’s notice.”
      In Section III, concerning Defense Strategy, states that “U. S. forces, both
      active and Reserve, must be multi-mission capable, proficient in their core
      warfighting competencies, and able to transition from peacetime activities and
      operations to enhanced deterrence in crises, to war.” In Section VI, concerning
      Force Readiness, states that “Ready forces provide the flexibility needed to
      shape the global environment, deter potential foes and, if required, to rapidly
      respond to a broad spectrum of threats. In addition, readiness instills the
      confidence our people need to succeed in a wide variety of challenging
      situations. In recent years, DoD policy and budget guidance has explicitly made
      readiness the top priority.”

Army Combined Arms Training Strategy
      The CATS is the Army’s overarching training architecture and provides the
      framework for structured training development. According to the Army,
      “CATS will provide standardized, structured training requirements and identify
      required resources for the planning and execution of training to standard. The
      task based and truly combined arms strategies will provide the total force with
      standardized guidance on the frequency of tasks to achieve desired levels of




                                         8
            proficiency while ensuring readiness to meet Mission Essential Task List
            (METL)1 requirements.” Thus, the CATS provides the standardized, structured
            doctrinal training strategies needed to assist commanders in planning, executing,
            and assessing of training.


Operating Tempo
            OPTEMPO is the estimated rate at which a single system or piece of equipment
            is projected to be reasonably used for all purposes, principally training, during a
            peacetime year. The rates, stated as upper limits, are expressed in terms of
            miles per year, hours per year, or other appropriate units of measure. Army
            headquarters uses OPTEMPO to justify to Congress the training dollars it needs.
            The Army allocates funding based on the number of units in the total force,
            thereby establishing the resourced OPTEMPO for each unit. The OPTEMPO
            needed to achieve the desired training level is 850 miles for a tank battalion and
            975 miles for a divisional cavalry squadron. Congress funded Army tank
            training at 800 miles.


Training Readiness
            The 800-mile goal is based on the CATS and on training levels (T-levels). The
            CATS describes the mission-essential tasks that must be performed to achieve
            training proficiency at various unit levels. Tank miles are accumulated as the
            units perform most mission-essential tasks. T-levels indicate the training status
            of a unit and are a factor in assessing a unit’s ability to perform assigned
            wartime missions.

            Units are assigned a numerical T-level rating based on the number of days they
            would need to accomplish certain mission-essential tasks in order to be fully
            trained or deployable. Together, the CATS and the T-level ratings describe the
            level at which a unit is trained and how many additional training days are
            required to reach a desired level of training proficiency for deployment. The
            681 Army tank miles reported in the Annual Report would translate to the T-2
            level. At the T-2 level, 15 to 28 days of training are needed to meet wartime
            proficiency standards. The following table shows the estimated days of training
            needed and other information associated with training levels.

                                                       Training Levels

                 T-Level Rating                                 1        2       3        4
                 Estimated Days                               0-14     15-28   29-42 43 or more
                 Average Miles                                850     849-548 547-361 360-219
                 Unit Level                                 Battalion Company Platoon   Crew


1
    The Mission Essential Task List is an unconstrained statement of tasks required to accomplish wartime missions.



                                                            9
________________________________________________________________________

Describing the Measure
      DoD established the “Tank Miles” measure for assessing the achievement of
      wartime proficiency standards and to serve as a benchmark for the Army ground
      forces portion of Performance Goal 1.2, “Maintain Trained and Ready Forces.
      However, limitations on the use of the “Tank Miles” measure to assess the
      Army’s ground forces were not clearly explained in the Annual Report. The
      existing measure established performance objectives for training only tank units.
      The measure does not address training for the other Army combat systems.

      We believe that limitations to the measure should be more fully explained in the
      Annual Report. The discussion should state that the combat arms portion of the
      CATS (for example, artillery and infantry) is not measured as part of the tank
      mile goal. Further, it should be cited that tank miles are not a comprehensive
      measure for Army combat arms training because the tank mile measure relates
      only to M1 Abrams tanks and no other Army combat systems. In addition, it
      should be noted that tank miles for M-1 Abrams tanks equate to only 24 percent
      of the total OPTEMPO of the Army and do not represent the OPTEMPO for
      other Army combat units or systems (for example, artillery systems and Bradley
      fighting vehicles). Finally, it should be discussed that using tank miles as a
      measure is limited because the process for recording tank miles, as discussed in
      Appendix C, does not include a correlation between the tank odometer reading
      and the crew that used the tank and, therefore, does not provide a measure for
      crew readiness.


Conclusion
      The Army has used tank miles as a training tool metric since 1984, and it is an
      objective, quantifiable, and measurable metric. However, as a metric it is
      limited to measuring training of tank units and not other Army ground combat
      systems. We believe that a clear explanation of the performance measure is
      needed.


Management Comments on the Finding and Audit Response
      Revised Finding. As a result of the management comments, we have revised
      Finding B.

      Management Comments. USD(P&R) did not concur with the draft report
      finding. The tank miles measure is designed to be key high-level indicator, not
      a comprehensive measure of trained and ready forces. The Army resources
      training in all units to a level that is consistent with the 800 miles goal for armor
      units. The Army resourcing model specifies the activity level in nonarmor units
      that is equivalent to the 800 miles goal for armor units. Focusing on the major
      combat-system places greater scrutiny on that system, but does not imply that
      other systems and other types of units are not considered, nor that their
      resourcing is not tracked by the Army and the Office of the Secretary of
      Defense.


                                           10
    Audit Response. Based on USD(P&R) comments, we have revised the finding
    to clarify our intent that limitations on the use of the “Tank Miles” measure be
    more fully explained.


Recommendation, Management Comment, and Audit
Response
    Revised Recommendation. As a result of the management comments, we have
    revised Recommendation B.

    B. We recommend that the Under Secretary of Defense for Personnel and
    Readiness more clearly explain limitations on the use of the “Tank Miles”
    performance measure in the Secretary of Defense’s “Annual Report to the
    President and the Congress,” 2001.

    Management Comments. The USD(P&R) nonconcurred on the draft report
    recommendation. Tank miles is representative of Army combined arms training
    and is not a direct measure of all Army training accomplishments in the full
    variety of army units and weapons systems included in combined arms training
    nor is it intended to be. A more comprehensive look at Army training using
    existing data sources and metrics would require a greatly expanded set of GPRA
    indicators. USD(P&R) stated that measuring more things in more details would
    not provide Congress or the public with a clearer picture of the Department’s
    performance. More comprehensive detail about training and readiness in Army
    units occurs regularly in other reporting venues, such as the Quarterly Readiness
    Report to Congress. There is no current evidence that a single overall number
    that would quantify training accomplishment for all types of Army units
    combined is achievable.

    Audit Response. Based on USD(P&R) comments, we have revised the
    recommendation to clarify our intent that limitations on the use of the “Tank
    Miles” measure be more fully explained. We request that the USD(P&R)
    provide comments on the revised recommendation.




                                       11
________________________________________________________________________

Appendix A. Audit Process

Scope and Methodology
      We validated the process for accumulating and reporting the actual data
      collected by the Army against the FY 1999 tank mile goal. We performed the
      audit at OUSD(P&R), PA&E, ODCSOPS, the Logistics Support Activity
      (LOGSA), two Army installations, and other offices responsible for recording
      Army tank miles. To determine whether accurate data was reported from the
      field to LOGSA, we selected two Army installations for review. We randomly
      selected 53 tanks to validate the tank odometer readings. We obtained and
      reviewed monthly LOGSA reports on odometer readings from January 1999
      through March 2000. We compared the actual odometer readings as of March
      2000 with the LOGSA reports and determined that 19 of 53 tank odometer
      readings did not match the LOGSA reports. The discrepancies were attributed
      to human error and changing of control panels. We reviewed the Army
      Command Policy memorandum G4-00-06, “OPTEMPO Reporting,” January 4,
      2000, which outlines procedures for eliminating errors that result from human
      input and control panel changes. We also reviewed the CATS, the GPRA of
      1993, the Annual Report, and other related DoD policies and regulations.

      Use of Computer-Processed Data. We relied on computer-processed data
      from the Army Maintenance Management System (TAMMS) equipment
      database, the Army Materiel Status System, the Standard Army Maintenance
      System, and the Unit Level Logistics System-Ground. We did not perform tests
      of general and application controls to confirm the reliability of the data because
      the data used from those systems did not materially affect the results of the
      audit. When reviewed in context with other evidence the conclusions and
      recommendations in this report are valid.

      Universe and Sample. We judgmentally selected two Army sites and used
      random numbers to select tanks from the unit motor pools, on which we verified
      the odometer readings. There were 173 tanks total at the two sites; our samples
      comprised 28 tanks at one site and 25 tanks at the other.

      Audit Type, Dates, and Standards. We performed this program audit from
      March through July 2000 in accordance with auditing standards issued by the
      Comptroller General of the United States, as implemented by the Inspector
      General, DoD. Accordingly, we included tests of management controls
      considered necessary.

      Contacts During the Audit. We visited or contacted individuals and
      organizations within DoD. Further details are available on request.

      Management Control Program Review. Our review of management controls
      over GPRA performance measure goals will be discussed in a summary report
      upon completion of the current reviews.




                                          12
Prior Coverage
    The General Accounting Office has conducted multiple reviews related to
    GPRA. This report is one in a series on the Inspector General, DoD, current
    reviews of GPRA performance measures and indicators. Unrestricted General
    Accounting Office reports can be accessed over the Internet at
    http://www.gao.gov. Unrestricted Inspector General, DoD, reports can be
    accessed at http://www.dodig.osd.mil/audit/reports.




                                     13
________________________________________________________________________

Appendix B. Recording Process for Tank Miles
      The Army used its existing process for the collection and review of tank miles
      driven to provide the information in the Annual Report. The process consists of
      data collection, review, and reporting.

      Data Collection. Units record tank odometer readings into the Unit Level
      Logistics System-Ground on a monthly basis. That data is processed by the
      Standard Army Maintenance System (SAMS) and transferred to LOGSA.

      Data Review. LOGSA performs the edit and logic checks for reasonableness of
      the data, but does not make any changes to the data. LOGSA considers a report
      of 0-1,000 tank miles driven in a month to be reasonable. LOGSA does not
      include data outside that range in the averages for that month. LOGSA
      considers mileage of less than 0 miles or more than 1,000 miles in a month to be
      the result of human error. Unacceptable odometer readings for any given month
      do not materially affect the averages for the quarter or the year because when
      correct readings for the following month are processed, the mile averages are
      corrected automatically.

      Data Reporting. LOGSA forwards the data to the Army Cost and Economic
      Analysis Center, which computes the actual tank mile averages and reports the
      results to ODCSOPS. ODCSOPS reviews the compiled tank miles and reports
      those miles annually to PA&E for the Annual Report.

      Process Improvement. During a unit-level site visit, we observed numerous
      tank odometer readings that were inconsistent with reported mileage. Personnel
      at the site attributed those inconsistencies to the changing of instrument panels
      on some tanks and the new odometers reflected different numbers. Site
      personnel could not provide adequate documentation to support the instrument
      panel changes. However, on January 4, 2000, the Army issued a memorandum
      for the purpose of establishing the OPTEMPO recording and reporting
      procedure. The memorandum covers in detail proper procedures for reporting
      tank mile data through the Unit Level Logistics System-Ground. One of the
      procedures requires that if an instrument panel from a tank is replaced, the
      odometer readings of both the old and the new panels must be recorded. That
      procedure would help LOGSA reduce the number of records discarded because
      of invalid odometer readings. When the policies outlined in the memorandum
      are fully implemented, the problem with replaced odometers will be corrected.




                                         14
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
 Deputy Chief Financial Officer
 Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation
Under Secretary of Defense for Personnel and Readiness

Joint Staff
Directorate for Operations (J-3)
Directorate for Strategic Plans and Policy (J-5)

Department of the Army
Commanding General, U.S. Army Forces Command
Deputy Chief of Staff for Operations and Plans
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force


Non-Defense Federal Organizations
Office of Management and Budget
General Accounting Office




                                           15
________________________________________________________________________

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations,
Committee on Government Reform




                                       16
Under Secretary of Defense for
Personnel and Readiness
Comments




               17
18
Final Report
 Reference




    Revised
     Page 3




               19
     Final Report
      Reference




     Deleted
     Rec. A.3.


     Revised
     Page 8




     Revised
     Page 11




20
Audit Team Members
   The Readiness and Logistics Support Directorate, Office of the Assistant
   Inspector General for Auditing, DoD, prepared this report.

     Shleton R. Young
     Raymond D. Kidd
     Robert M. Murrell
     Sheela M. Javeri
     Douglas P. Ickes
     Kevin T. O’Connor
     William E. Shimp
     Harry B. Kellam, Major, U.S. Army
